                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: I09050024                                                                     Page 1 of 1



         This case was generated from a proactive review of awards made to organizations for educational
         evaluation and program development. From the grantee!, we requested and reviewed the general
         ledger and source documentation for two NSF awards 2 • During our review, we did not identify any
         fraudulent, unallowable, or unsupported expenses.

                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
